                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02010002                                                                     Page 1 of 1



      On January 4,2002, we received a complaint that a PI' violated Grant Proposal Guidelines in a
      CAREER proposal2.Specifically, it was alleged that (1) 'Beginning Investigator' was checked
      on the cover sheet, but the PI was not a beginning investigator; (2) 'NO' was checked in answer
      to the question 'Is this proposal being submitted to another Federal agency?', but in fact an
      overlapping proposal was submitted to NIH; and (3) the Current and Pending Support form was
      incomplete. The matter was opened for inquiry on January 25.

      With respect to the first allegation, the Grant Proposal Guide defines beginning investigators as
      'individuals who have not been a principal investigator (PI) or co-principal investigator (co-PI)
      on a Federally funded award with the exception of doctoral dissertation, postdoctoral fellowship
      or research planning grants.' The PI was not a beginning investigator by this definition.
      However, we found that the PI was a first-time NSF applicant who may have assumed that
      beginning investigator is synonymous with junior faculty member or scientist beginning hidher
      career. We noted that the language of the CAREER solicitation is consistent with this
      understanding.

      With respect to the second allegation, we determined that FastLane automatically checks 'NO'
      on the proposal cover sheet if the user enters no information in a section entitled 'Other Federal
      Agencies'. Thus, what appears to be a false response to a question may simply represent failure
      to complete a FastLane form.

      With respect to the third allegation, we found that the Current and Pending Support form did not
      include support listed on the PI's website, and did not include the PI's pending NIH proposal.

      Because the PI notified NSF and withdrew his proposal upon receiving an award from NIH, we
      concluded there was no attempt to secure duplicative funding and no harm to the Government.
      Accordingly, this case is closed.




      ' [redacted]
       [redacted]


                         Agent                   Attorney                Supervisor                AIGI

  Sign 1 date
